AU00-01 November 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Volunteer Lawyers Project of the Boston Bar Association Inc.
Recipient No. 122007
Final Report No. AU00-01
November 1999
TABLE OF CONTENTS
RESULTS OF AUDIT
SUMMARY
CASE SERVICE REPORTING REQUIREMENTS
LSC USES OF GRANT ACTIVITY REPORT
CONCLUSIONS
GRANTEE COMMENTS AND OIG DECISION
BACKGROUND
OBJECTIVES, SCOPE, AND METHODOLOGY
APPENDIX I - Volunteer Lawyers Project of the Boston Bar Comments on Draft Report
APPENDIX II - OIG Staff
RESULTS OF AUDIT
SUMMARY
The Volunteer Lawyers Project of the Boston Bar Association (grantee)
reported 9,847 closed cases and 1,362 open cases in its 1998 Grant Activity
Report.  The Office of Inspector General (OIG) determined that the report fairly
stated the number of cases the grantee closed during 1998.  As discussed below,
the OIG did not evaluate reported open cases.
Closed Cases
The auditors reviewed a sample of 85 cases closed in 1998 and determined
that, with a few immaterial exceptions, the cases were properly closed and
reported in 1998.  The grantees case intake procedures and policies for opening
and closing cases were adequate.  Sound management controls were in place to
ensure that clients met Legal Services Corporation (LSC) financial and citizenship
guidelines and that eligibility determinations were documented.
One documentation problem surfaced during the review.  The files for 17 of
the 85 sample cases did not include documentation of the legal advice provided to
the clients.  These 17 cases were handled by a subgrantee that operated a hotline
service.  Subgrantee management stated that legal advice had been provided to all
clients and, based on the description of the clients legal problem, gave examples
that illustrated the type of advice that may have been provided.  In January 1999
the subgrantee remedied the documentation problem.  The OIG verified that during
1999 the subgrantees case handlers were annotating case files to reflect the
advice clients were provided.  In view of the corrective action taken, the OIG has
no recommendations.
Open Cases
Auditors did not review the grantees reported open cases because they
concluded that there was a low risk of significant miscounting of open cases.  The
grantee had a low ratio of open-to-closed cases.  (Based on prior experience, a high
ratio often indicates excess open cases.)  Most cases were opened and closed
within a very short time period, which precluded the untimely case closures that
were a major source of reporting problems in previously conducted audits.  Also,
the grantee had good control procedures over client intake that guarded against
legal services being provided to ineligible persons.  Last, the grantee had reviewed
its case statistical data and had reduced its number of reported cases by about
6 percent.
CASE SERVICE REPORTING REQUIREMENTS
LSC requires recipients to submit an annual Grant Activity Report
summarizing the previous years legal services activity wholly or partially supported
with LSC funds.  The information in the report includes total number of cases
worked on, types of legal issues, number of open and closed cases, and the
reasons cases were closed.  The report also includes information on Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipients priorities.  Eligibility is based
on income and citizenship determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporations
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on cases is an integral part of the management
oversight process and also allows LSC management to keep its Board of Directors
and the Congress informed of significant program activities and performance.
The grantee submitted the following information to LSC:
Type of Legal ProblemClosedOpen
Consumer/Finance1,028227
Education4110
Employment34120
Family1,766411
Juvenile1191
Health1313
Housing3,635240
Income Maintenance2,021321
Individual Rights765
Miscellaneous689124
TOTALS9,8471,362
CONCLUSIONS
The grantees 1998 Grant Activity Report accurately reported the number of
cases closed during the year.  Adequate controls were in place to guard against
ineligible clients being served.  As long as these controls function as intended
future reports should be accurate.
GRANTEE COMMENTS AND OIG DECISION
Grantee Comments
The grantee reviewed the draft report and did not disagree with the findings.
The comments are in Appendix I.
OIG Decision
There are no outstanding issues and therefore this audit is closed.
BACKGROUND
The grantee is a nonprofit entity organized to provide legal services to
indigent individuals who meet established eligibility guidelines.  The grantee is
located in Boston and its priorities include housing, income maintenance, family,
and consumer issues.  During 1998 the grantee was staffed with eight attorneys,
three paralegals, and three other personnel who assisted with case handling and
provided administrative support services.  The grantee received funding totaling
about $1.6 million in 1998, of which about 93 percent or $1.5 million came from
LSC.
The grantee gave a subgrant of $65,000 to the Legal Advocacy and
Resources Center to operate a hotline that provides advice, performs intake
screening, and makes referrals to other legal service organizations.  The grantee
also funded seven positions at the Legal Advocacy and Resources Center during
1998.  Subgrants were given to two law schools to provide direct legal assistance
to portions of the grantees service area.  The Community Law Center, an affiliate
of Harvard Law School, was provided $237,000 in 1998 and the Boston College
Legal Assistance Bureau received $85,000.  The grantee relied on volunteer
lawyers to satisfy its Private Attorney Involvement requirement.
Grantees prepare and submit an annual Grant Activity Report to LSC on key
aspects of their workload.  The report includes statistics for basic field services and
Private Attorney Involvement programs financed with LSC funds, including the
number of open and closed cases, types of cases, and the reasons for closing
cases.  For calendar year 1998, the grantee initially reported in March 1999 that it
had closed 15,417 cases and had 1,450 cases open at year-end.  The OIG notified
the grantee on May 21, 1999 that an audit would be performed to determine if the
1998 Grant Activity Report was accurate.  On June 22, 1999 the grantee revised
its Grant Activity Report and reported 9,847 closed and 1,362 open cases to LSC.
In effect, the grantee reviewed its 1998 report prior to the Office of
Inspector Generals (OIG) audit and identified cases that should not have been
reported in its Grant Activity Report for 1998.  The grantee attributed the reduction
in reported cases to a more accurate report from one of its subgrantees.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
The OIG performed this review from August 1623, 1999, at the grantee
and the three sub-grantees offices.  We examined the grant proposal submitted to
LSC by Volunteer Lawyers Project of the Boston Bar Association, Inc. for 1998 and
the grantees 1998 Grant Activity Report.  During the on-site visit, the OIG
interviewed and collected information from the executive director, supervisory and
staff attorneys, paralegals, and management officials at three subgrantees.
The OIG also obtained and reviewed the data in the automated case
management systems to determine if the case statistical data reported to LSC in
the Grant Activity Report was consistent with information in client case files and in
compliance with applicable LSC reporting requirements.
The OIG generated a random sample of 85 closed cases for detailed review.
The sample cases were selected from the case management systems maintained
by the Volunteer Lawyers Project and the three subgrantees.  The sample provides
90 percent confidence that the error rate for closed cases was between
0.63 percent and 6.14 percent.  The most probable error rate for closed cases was
2.35 percent.  This error rate is immaterial.  On May 14, 1999, LSC issued a
document titled Self-Inspection ProcedureCase Service Reporting which
instructed grantees to review the accuracy of their case statistics.  LSC informed
the grantees that no corrective action was necessary if less than five percent of the
cases reviewed had exceptions.  A five percent error rate is also a reasonable
threshold in establishing whether a grantee should revise its Grant Activity Report.
Open cases were not reviewed.  However, the OIG did evaluate intake
procedures and the grantees policies relating to the opening of cases.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-277, incorporating by reference Public Law 104-134, §509(g).
APPENDIX II
OIG STAFF RESPONSIBLE FOR THE AUDIT REPORT
Michael Griffith (Auditor-in-charge)
Abel Ortunio
Home | Reports | Top |
Appendix I -- Volunteer Lawyers Project of the Boston Bar Association Inc. Comments on Draft Report